OIG Investigative Reports, Pennsylvania Women Indicted With Conspiracy and Alteration of Records
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
April 1, 2008
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
Contact: Patricia Hartman
(215) 861-8200
Pennsylvania Women Indicted with Conspiracy and Alteration of Records
United States Attorney Patrick L. Meehan today announced the filing of an indictment  charging MARTHA RUSSELL and VIOLA BUSH with one count of conspiracy and one count of  alteration of records with the intent to impede the proper administration of a matter within the jurisdiction of the U.S. Department of Justice.  The indictment alleges that RUSSELL, as the Chief Executive Officer of Raising Horizons Quest Charter School, and BUSH, RUSSELL's sister and Cheif Financial Officer of the school, stole funds intended for the school from 2003 to 2005, and later attempted to hide their unlawful activities while being audited by the Philadelphia School District in January 2006.  This indictment is the result of an investigation by the United States Department of Education.  Defendants RUSSELL and BUSH each face a maximum sentence of twenty years imprisonment and a $250,000 fine.
Information Regarding the Defendants
NAMEADDRESSAGE
Martha RussellBlue Bell, PA52
Viola BushLansdale, PA49
The case has been assigned to Assistant United States Attorney Michelle Morgan-Kelly.
Media Contact: 215-861-8525
Printable view
Share this page
Last Modified: 04/14/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov